                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: AI0060043                                                                       Page 1 of 1



         We assessed an allegation of plagiarism in a summary report of an NSF-sponsored workshop 1
         which incorrectly described data in a speaker's presentation. The presentation itself correctly and
         clearly cites the source of the data. The unfortunate misstatement in the summary report is
         insufficient to support further action into an allegation of plagiarism.

         We assessed a second part of the allegation, namely the conclusion of an individual that the          i'~

         reason that she is not invited to workshops is racial discrimination. We referred this matter to
         NSF's Office of Diversity and Inclusion as the matter may properly reside with them.

         Accordingly, this case is closed.




          1   Redacted.




NSF orG Form 2 (11102)
